                                              EMPLOYEE BENEFITS
                                              SECURITY ADMINISTRATION

Office of Inspector General—Office of Audit




                                              EBSA Needs Additional Authority to
                                              Improve the Quality of Employee Benefit
                                              Plan Audits




                                                              Date: September 30, 2004
                                                              Report Number: 09-04-005-12-121
Department of Labor                          SEPTEMBER 2004
Office of Inspector General
Office of Audit
                                             EBSA NEEDS MORE
                                             AUTHORITY TO
BRIEFLY…                                     IMPROVE THE QUALITY
Highlights of Report Number: 09-04-005-      OF EMPLOYEE BENEFIT
12-121, a report to the Assistant
Secretary for the Employee Benefits          PLAN AUDITS
Security Administration. (EBSA)
September 30, 2004
                                             WHAT OIG FOUND
WHY READ THE REPORT:
                                             We found that EBSA ineffectively identified and
The Employee Retirement Income Security      corrected substandard ERISA audits. EBSA:
Act (ERISA) requires that most large
employee benefit plans obtain an annual         •   Lacked sufficient authority to prevent
audit of their financial statements. This           substandard work by plan auditors.
provision is an important part of ERISA’s       •   Did not ensure timely correction of
protection system for plan participants             substandard audits.
and beneficiaries. In Fiscal Year 2001,         •   Operated a Case Tracking System (CTS)
retirement plan administrators filed about          that was inaccurate and incomplete.
65,000 financial statements DOL’s               •   Required better methods to target
Employee Benefits Security Administration           deficient plan audits.
(EBSA) is responsible to ensure that these
                                             WHAT OIG RECOMMENDED
audits meet ERISA requirements,
including professional auditing standards.      We recommended that the Assistant Secretary
EBSA’s Office of the Chief Accountant           for Employee Benefits Security:
(OCA) administers an enforcement and
compliance assistance effort to identify        •   propose changes to ERISA to give EBSA
and correct substandard audits.                     greater enforcement authority,
                                                •   require corrective actions related to
WHY OIG DID THE AUDIT:                              substandard audit deficiencies (including
                                                    those identified by OIG) and expand
Prior reviews by the U. S. Department of            reviews to more recent audits,
Labor Office of Inspector General (OIG),
the U.S. Government Accountability Office       •   improve the accuracy of the CTS database
(GAO), and EBSA found that a number of              and the completeness of the case file
plan audits had not met ERISA                       documentation and monitor the location of
requirements. The overall objective of our          the case files within EBSA’s offices, and
audit was to evaluate the effectiveness of      •   develop better targeting methods.
EBSA’s process to identify and correct
substandard audits. Our audit focused on     EBSA generally agreed with our report. EBSA
EBSA’s actions during the period             cited previous and ongoing efforts to improve
October 1, 2000 through September 30,        audit quality. EBSA disagreed with our finding
2001.                                        that it did not adequately ensure that plan
                                             auditors corrected some of the audit
READ THE FULL REPORT:                        deficiencies we cited. With respect to EBSA’s
                                             enforcement authority, EBSA recognizes
The full report is available at:             deficiencies in the current law and is considering
                                             options for correcting those deficiencies.
http://www.oig.dol.gov/public/reports/oa/
2004/09-04-005-12-121.pdf
Table of Contents________________
EXECUTIVE SUMMARY ...................................................................................... i

ASSISTANT INSPECTOR GENERAL FOR AUDIT’S REPORT.......................... 1


RESULTS AND RECOMMENDATIONS .............................................................. 1

EBSA Needs Enforcement Authority Over Plan Auditors ............................... 2
Recommendation................................................................................................ 8

EBSA Needs to Ensure Plan Auditors Correct Audit Deficiencies................. 8
Recommendations............................................................................................ 14

EBSA Needs to Improve Its Case Tracking System and Case File
Documentation ................................................................................................. 15
Recommendation.............................................................................................. 18

EBSA Needs to Develop More Effective Targeting Methods........... ………...19
Recommendation.............................................................................................. 23


EXHIBITS:

         I.       Results of Workpaper Reviews .................................................. 26
         II.      Employee Benefit Plans Audited by Plan Auditors from OIG
                  Sample.......................................................................................... 33
APPENDICES:
         A.       BACKGROUND ............................................................................ 35
         B.       SCOPE, METHODOLOGY, and CRITERIA ................................. 36
         C.       ACRONYMS and ABBREVIATIONS............................................ 40

         D.       EBSA RESPONSE TO THE DRAFT REPORT ............................ 41
                                       U.S. Department of Labor--Office of Inspector General



EXECUTIVE SUMMARY____________
The Employee Retirement Income Security Act (ERISA) requires that most large
employee benefit plans obtain an annual audit of their financial statements. In
                                fiscal year 2001, plan administrators filed about
                                65,000 financial statements1 on private pension
   To effectively               plans holding assets over $4 trillion and
   improve the quality          covering over 88 million participants. One of the
                                Employee Benefits Security Administration’s
   of employee benefit          (EBSA) responsibilities is to ensure that these
   plan audits, EBSA            audits meet ERISA requirements, including
   needs additional             professional standards, to help protect
   enforcement                  participant and beneficiary benefits.
    authority. EBSA
    also needs to                  As far back as 1984, reviews by the U. S.
                                   Department of Labor, Office of Inspector
    improve its follow-
                                   General (OIG), the U.S. Government
    up procedures, the             Accountability Office (GAO), and EBSA have
    case management                shown that a significant number of these audits
    system, and                    have not met ERISA requirements.2 These
    targeting methods              substandard audits have not provided
    to identify                    participants and beneficiaries the protections
                                   envisioned by the Congress. To deal with this
    substandard audits.            problem, EBSA established an Office of Chief
                                   Accountant (OCA). One of OCA’s main
responsibilities is to ensure the quality of employee benefit plan audits. As part
of an overall enforcement and compliance assistance effort, OCA implemented a
program in 1990 to identify and correct substandard audits.

The overall objective of our audit was to evaluate the effectiveness of EBSA’s
process to identify and correct substandard audits.

Although EBSA has reviewed a significant number of employee benefit plan
audits and has made efforts to correct substandard audits, including rejecting
annual report filings and making referrals to professional organizations, the
process for identifying and correcting substandard employee benefit plan audits
has not been effective. A significant number of substandard audits remain
uncorrected and plan auditors performing substandard work generally continue to
audit employee benefit plans without being required to improve the quality of the
audits.


1
  The term financial statements, as used here, means a plan’s required financial statements,
accompanying schedules, and auditor’s report.
2
  ERISA Section 103(a) requires employee benefit plan audits to comply with Generally Accepted
Auditing Standards and establishes detailed requirements for the financial statements.
EBSA Needs Additional Authority to Improve                                                     i
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


We found the following conditions:

     1. EBSA cannot take direct action against auditors who perform substandard
        audits. (See pages 1 to 8 for a more detailed discussion.)

     2. EBSA did not fully ensure that auditors corrected audit deficiencies it
        identified. We found that 9 of 16 audits we reviewed, that EBSA
        previously identified as substandard, had not been brought up to ERISA
        requirements. (See pages 8 to 15 for a more detailed discussion.)

     3. EBSA did not ensure that auditors corrected recurrent deficiencies in
        year(s) that were more recent. We found that 20 out of 27 (74 percent)
        plans we reviewed had substandard audits that continued into years that
        were more recent. (See pages 8 to 15 for a more detailed discussion.)

     4. EBSA’s Case Tracking System (CTS) was not accurate, the
        documentation of case files was not always complete, and 3 out of 110
        case files could not be located during our fieldwork. (See pages 15 to 18
        for a more detailed discussion.)

     5. EBSA’s targeting methods were not effective. In fiscal year 2001, EBSA’s
        targeting only identified substandard audits in about 3 percent of the cases
        reviewed. Historical data show that EBSA should find at least 20 percent
        of the cases reviewed to be substandard. (See pages 19 to 24 for a more
        detailed discussion.)

These conditions occurred primarily because:

     1. ERISA does not grant EBSA enforcement powers over the auditors
        performing employee benefit plan audits.

     2. EBSA did not obtain sufficient documentation to ensure that audit
        deficiencies were corrected.

     3. EBSA did not believe it had sufficient resources to expand workpaper
        reviews to later years’ audits.

     4. EBSA did not believe that certain data fields in the Case Tracking System
        were critical to its day-to-day operations and did not have a system to
        monitor the location or contents of the case files within EBSA’s offices.

     5. EBSA did not place sufficient management emphasis on changing
        targeting methods and did not have appropriate data easily available.




ii                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


RECOMMENDATIONS

We recommend the Assistant Secretary for Employee Benefits Security:

   1. Propose changes to ERISA to grant EBSA greater enforcement authority
      over such matters as registration, suspension, debarment, and civil
      penalties against employee benefit plan auditors.
   2. Obtain sufficient documentation to ensure audit deficiencies are corrected.
   3. Expand workpaper reviews to more recent years when EBSA finds audit
      deficiencies.
   4. Review the OIG referrals and take necessary action to correct the
      substandard audits.
   5. Improve the accuracy of the CTS and the completeness of the case file
      documentation and implement a system to monitor the location of the case
      files within EBSA’s offices.
   6. Analyze available data and develop targeting methods based on common
      attributes of plans with substandard audits.

EBSA’S RESPONSE

EBSA generally agreed with our conclusions and recommendations, and
identified planned steps to address the recommended actions. EBSA cited
previous and ongoing efforts to improve audit quality. With respect to EBSA’s
enforcement authority, EBSA recognizes deficiencies in the current law and is
considering options for correcting those deficiencies. EBSA agreed it could
improve documenting corrected audit work. However, of the nine cases OIG
identified as not having been brought up to ERISA requirements, EBSA believed
six had been properly documented and closed after receiving additional
information from the plan auditors. Also, EBSA stated the OIG’s finding on the
effectiveness of EBSA’s targeting methodology failed to take into account annual
report filings the agency rejected in FY 2001 based on desk reviews that
identified inadequate financial statement disclosures.

We have included EBSA’s responses within each finding in the report. EBSA’s
response to the draft report is attached in its entirety to this report as Appendix D.

OIG’S CONCLUSION

Based on information provided by EBSA officials in their response, the first
recommendation is unresolved, and recommendations 2 through 6 are resolved
but not closed. Additional action or information needed is discussed after each
recommendation in the report.

EBSA Needs Additional Authority to Improve                                            iii
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General




U.S. Department of Labor                            Office of Inspector General
                                                    Washington, DC. 20210


                  Assistant Inspector General’s Report

Ann L. Combs
Assistant Secretary for
 Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We have audited EBSA’s process for identifying and correcting substandard
employee benefit plan audits. Our overall objective was to evaluate the
effectiveness of EBSA’s process to identify and correct substandard audits.
Thus, we addressed the following specific objectives:

   1. Does EBSA have sufficient enforcement authority to ensure that employee
      benefit plan audits adequately protect participants and beneficiaries?

   2. Does EBSA ensure that plan auditors correct substandard audits?

   3. Does EBSA ensure that the deficiencies identified do not recur in other
      years?

   4. Are EBSA’s methods for identifying substandard employee benefit plan
      audits effective?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.

RESULTS AND RECOMMENDATIONS
Objective 1: Does EBSA have sufficient enforcement authority to ensure that
employee benefit plan audits adequately protect participants and beneficiaries?

EBSA does not have sufficient enforcement authority to ensure that employee
benefit plan audits adequately protect participants. As a result, EBSA cannot
take timely effective actions on substandard audits and problem auditors
continue to perform plan audits.




EBSA Needs Additional Authority to Improve                                            1
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


EBSA Needs Enforcement Authority Over Plan Auditors

Although EBSA has the responsibility to enforce ERISA’s audit requirements,
ERISA does not grant EBSA enforcement powers over the auditors performing
employee benefit plan audits. In fact, EBSA has much less enforcement
capabilities than other Federal agencies with similar responsibilities. As a result,
EBSA cannot take direct enforcement action against the plan auditor for
substandard audit work. EBSA can only take indirect enforcement action by
imposing civil penalties against the plan administrator, the person who engages a
plan auditor. Auditors in our sample audited 140 plans, comprising nearly $3
billion in assets that covered about 140,000 participants. Overall, substandard
audits significantly increase the risk of loss of plan assets and benefits.

    ERISA does not provide      ERISA Section 103 requires a plan administrator
    EBSA with sufficient        to obtain an audit that complies with generally
    authority to take effective accepted auditing standards (GAAS).3 In 2001,
    enforcement action on       there were about 65,000 plans requiring audits.
    substandard audits.         Moreover, although ERISA grants authority to
                                EBSA to enforce provisions on fiduciaries,
                                including plan administrators, a plan auditor is not
a fiduciary. Hence, EBSA cannot disbar, suspend, nor take any effective action
against a plan auditor for substandard work.

Instead, EBSA must work through the plan administrator in correcting
substandard audits. Since the audit is a part of ERISA’s reporting process,
EBSA corresponds with the plan administrator to initiate an audit review. If
EBSA finds deficiencies during its audit review, EBSA can reject an annual report
filing and take action against the plan administrator. This includes significant
fines and court actions for fiduciary violations. However, the plan administrator is
generally neither knowledgeable about nor capable of correcting the deficiencies
identified by EBSA. For this, the plan administrator must rely on the expertise of
the plan auditor. Therefore, neither EBSA nor the Office of the Solicitor
considers it productive to punish a plan administrator for the plan auditors’
substandard work.

Since EBSA cannot take direct action against the plan auditor for substandard
audit work, EBSA relies on other entities to administer disciplinary or remedial
actions against auditors. EBSA’s practice is to refer plan auditors to the
American Institute of Certified Public Accountants (AICPA) if a plan auditor is a
member of the AICPA. If the plan auditor is not an AICPA member, EBSA’s




3
  Significant areas of employee benefit plan audits include, but are not limited to, internal control,
investments, contributions, and benefit payments.

2                                                         EBSA Needs Additional Authority to
                                           Improve the Quality of Employee Benefit Plan Audits
                                                                   Report No:09-04-005-12-121
                                       U.S. Department of Labor--Office of Inspector General


practice is to refer the plan auditor to a state board of accountancy (State
board).4

The AICPA Process

The AICPA is a voluntary, nonprofit, professional organization of Certified Public
Accountants (CPAs).5 Although membership is voluntary, the AICPA provides an
enforcement program for it members, including plan auditors. EBSA refers plan
auditors who are AICPA members determined by EBSA to have performed
substandard audits, to the AICPA for investigation. Upon receiving an EBSA
referral for substandard audit work, the AICPA performs a comprehensive and
thorough investigation. This investigation involves evaluating all of the plan audit
work, not just the specific EBSA findings. In addition, the AICPA conducts one or
more meetings with the plan auditor as a part of this investigation. If the AICPA
identifies deficiencies relating to GAAS, it takes remedial or disciplinary actions
against the plan auditor. These disciplinary actions range from required
coursework to expulsion from the organization.

In addition to the length of time required for EBSA’s investigation and referrals,
the additional investigative procedures and due process the AICPA follows could
add considerable time in resolving substandard work. First, upon receipt of the
referral, the AICPA conducts its own de novo investigation of the auditor’s work,
which duplicates EBSA’s investigation. Then the AICPA corresponds with the
plan auditor and allows for response(s). Ultimately, the findings are presented to
the AICPA Professional Ethics Committee, which then determines the remedial
or disciplinary action required.

For the reasons above, this process, including the completion of the remedial or
disciplinary action, can take several years. Based on a statistical sample of 20
(out of the 39) referrals EBSA made to the AICPA between 1998 and 2001, we
determined that as of June 30, 2004:

    •   14 of these cases against plan auditors were closed, and required an
        average of over 3 years for the investigation and the disciplinary or
        remedial actions to be completed, and
    •   6 cases were still pending the completion of final disciplinary or remedial
        actions and had been open for an average of 4 years.

Meanwhile, many of these individual plan auditors, whose plan audit EBSA
referred to the AICPA for substandard work product, continued to conduct
substandard plan audits. We found that audit work in 74 percent (20 of the 27) of
4
  EBSA referred 51 CPAs to the AICPA or State Boards of Accountancy during the years 1998
through 2001. Of these referrals, 39 were made to the AICPA and 12 were made to State Boards
of Accountancy.
5
  Throughout this report, we refer to CPAs as plan auditors. The terms CPA, IQPA, auditor, and
plan auditor are synonymous.
EBSA Needs Additional Authority to Improve                                                     3
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


plans sampled continued to be substandard in the years after the original plan
year in which EBSA detected deficiencies. While some of these plans had
changed auditors and therefore the substandard work was not performed by the
CPA disciplined by the AICPA, in certain instances, the plan auditor was the
same individual. In these cases, the considerable time required to finalize the
remedial and disciplinary actions against CPAs may have an impact on the
continued substandard audit work of these CPAs. Many of these plan auditors
had not yet completed the remedial training that was required by the AICPA
during this period. This purpose of this additional training was to enhance the
auditors’ competence in this audit area and thereby improve the quality of the
audit work.

For instance, EBSA determined in February 1999 that an auditor performed
substandard audit work on an employee benefit plan for the 1996 plan year. The
substandard work included GAAS violations encompassing failure to (1) exercise
due professional care, and (2) follow the requirements of governmental
authorities. Although the AICPA initiated the investigation of this case promptly,
this investigation took over one year to complete. Additionally, remedial actions
against the auditor were not completed until April 2001, over 2 years after the
referral date. However, these remedial actions did not fully resolve the issues.
In December 2003, the AICPA took additional remedial action against this
auditor. As of February 2004, this case still had not been fully resolved. During
this time, the auditor continued to perform substandard audit work on this
employee benefit plan. This same plan auditor also continued to audit other
employee benefit plans.

In another example, EBSA referred an auditor to the AICPA in June 2000, for
violating eight GAAS standards for plan year 1997. These violations included,
(1) deficiencies in planning and supervising the audit, (2) insufficient audit
procedures in the areas of investments, contributions, participant data, and plan
obligations, and (3) insufficient evidence of audit test work for administrative
expenses and subsequent events. The AICPA did not close this case until
March 2004 after remedial action was completed. During this period, this auditor
continued to conduct the audit on this plan as well as other employee benefit
plans.

Moreover, even when the AICPA expels a plan auditor from the organization for
egregious substandard audit work, this may have little effect on the plan auditor.
The AICPA is a voluntary membership organization and does not have any
licensing authority. Therefore, the plan auditor may continue to perform
employee benefit plan audits even after expulsion. The AICPA does, however
refer all matter that result in disciplinary action to the appropriate State Board.
For example, EBSA cited one plan auditor in our sample for substandard audit
work and the AICPA eventually expelled this auditor in September 2002 for the
audit work he performed on plan year 1997. After expulsion, the plan auditor


4                                                   EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


continued to audit this employee benefit plan and numerous other plans, which
comprised a significant component of his auditing and accounting practice.

State Boards of Accountancy

EBSA and the AICPA also refer auditors who have performed substandard audits
to State Boards. The State Boards grant licenses to CPAs to practice public
accounting. State Boards also have the authority to investigate and revoke
licenses. Each State Board follows its own rules and procedures regarding
investigations and removal of CPA licenses as determined by state laws and
regulations.

State Boards, however, are inconsistent and ineffective in their oversight of
employee benefit plan auditors. EBSA made 51 referrals of auditors between the
years 1998 and 2001. Of these, 12 were to State Boards. We performed follow-
up and review on all of these referrals. We found that 42 percent of the referrals
EBSA made to State Boards resulted in no enforcement, disciplinary, or remedial
action. In these cases, the State Boards did not initiate an investigation or they
closed the cases with no findings subsequent to the investigation.

In one case, EBSA determined that a plan auditor had not performed any audit
testing and referred the plan auditor to the appropriate State Board. The State
Board took no action. State Board officials told us disciplinary action in that state
occurs only after two infractions of auditing standards. Since the State Board
had not received a second complaint, the State Board took no action and
dismissed the case.

In another case, the State Board we contacted could not find any record of a
referral made by EBSA. After a search of their complaint database, the State
Board told us they probably dismissed the case because EBSA did not use the
approved form to make this referral.

As noted above, States have different thresholds for actions, such as two
complaints of gross negligence or the use of a specific form to make a referral.
EBSA’s referrals are, unfortunately, subject to these various thresholds, which
frequently result in no action.

Other Federal Agencies

Other federal agencies with similar oversight of responsibilities have much more
direct enforcement authority. The Joint Board of Pension Actuaries (Joint
Board), the Securities and Exchange Commission (SEC), the Public Company
Accounting Oversight Board (PCAOB), and the Internal Revenue Service (IRS)
all have professional oversight responsibilities. Each of these organizations has
much greater enforcement authority over the practitioner in order to meet their
responsibilities.

EBSA Needs Additional Authority to Improve                                            5
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


Joint Board

ERISA established the Joint Board to set up professional standards and
qualifications for actuaries to conduct pension work. The Joint Board consists of
representatives from the DOL and the IRS. An actuary must satisfy Joint Board
standards and qualifications and obtain approval to perform actuarial services on
ERISA employee benefit plans. Applicants must submit a membership form to
the Joint Board and must pass a comprehensive pension actuarial exam. In
addition, the Joint Board requires annual continuing professional education
credits. The IRS acts as the investigative office for the Joint Board and refers
any deficient actuarial work to the Joint Board. The Joint Board meets four times
a year to review complaints of deficient actuarial work. The Joint Board has the
power to assess non-monetary penalties against actuaries, such as letters of
reprimand, and to suspend or recommend actuaries be disbarred.

The SEC

The primary mission of the SEC is to protect investors and maintain the integrity
of the securities markets. One of the SEC’s most important protections on behalf
of investors is the requirement that public companies obtain an annual audit; a
requirement similar to that of ERISA. Historically, the SEC has allowed state
licensed CPAs to represent SEC registrants in audit work. However, the
Securities Acts of 1933 and 1934 grant the SEC the authority to monitor and take
enforcement action against auditors for substandard work. Through this
authority, the SEC has implemented a stringent monitoring program to review the
quality of audit workpapers and to ensure that audits are conducted in
accordance with the required standards.

If the SEC finds substandard audit work, it has the authority to bar, censure, or
suspend auditors. The SEC also has the power to impose civil penalties in
cease-and-desist proceedings directly against the auditor. These penalties
range from $5,000 to $500,000.

The PCAOB

The PCAOB, a quasi-governmental body created under the Sarbanes-Oxley Act
of 2002 (Sarbanes-Oxley), began operations on April 26, 2003. Congress
mandated the creation of the PCAOB in part because they believed that the
AICPA’s peer review process was not effective. The PCAOB provides an
expansion of SEC’s powers in the oversight of audit firms who practice before the
SEC. The PCAOB has the power to write its own standards; to register and de-
register auditors; and to conduct a continuing program of inspections to assess
the degree of compliance of each registered public accounting firm with
professional standards and other regulatory requirements.



6                                                   EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


The PCAOB has also established procedures for the investigation and discipline
of registered public accounting firms and associated persons. When violations of
professional standards are detected, the PCAOB has the authority to impose
sanctions designed to deter possible recurrence and to enhance the quality and
reliability of future audits. The sanctions range from monetary penalties and
remedial measures, to revocation of firm registration or the barring of a person
from participating in audits of public companies.

PCAOB’s oversight responsibilities resemble that of EBSA, including the
requirement of annual audits as a protection tool for the investing public and, in
employee benefit plans, participants and beneficiaries. Further, the magnitude of
PCAOB’s responsibilities can be compared with that of EBSA. PCAOB oversees
audits of mutual fund portfolios of $6.1 trillion in assets, investment advisers’
management of $21 trillion in assets, and $6.3 trillion in assets under
management by investment companies. Approximately 44 million U.S.
households invest in mutual funds audited under the oversight of PCAOB. In
comparison, EBSA is responsible for 7 million employee benefit plans holding
over $4 trillion in assets on behalf of over 140 million employees.

IRS

Under Title 31, Section 330 of the United States Code, the IRS oversees enrolled
agents, CPAs, and attorneys who prepare taxes and appear before the IRS in
the event of an audit. While the IRS allows CPAs and attorneys to practice
based on their state licenses, enrolled agents must undergo an application
process and either possess extensive IRS experience or pass an examination.
As a condition of renewing any of these licenses, a specific amount of education
is mandated.

In addition, the IRS monitors tax preparers, including CPAs and attorneys,
through the tax return examination process. If the IRS finds deficient tax
preparation work, it has the authority to penalize, suspend, or disbar these
practitioners from practicing before the IRS.

Summary

In summary, the Joint Board, SEC, PCAOB, and IRS each have oversight
responsibilities similar to EBSA, but possess much greater enforcement powers
to meet these responsibilities. Specifically, all these agencies monitor
professional work to protect the public. All have sufficient authority to correct
deficient work, to require remedial action when necessary or to remove deficient
professionals from doing work in their respective area of responsibility. Having
such authority has enabled each agency to better deter substandard work. By
contrast, EBSA stands alone of those we reviewed, as the one federal agency
without comparable enforcement and oversight powers over its audit
practitioners.

EBSA Needs Additional Authority to Improve                                            7
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


If EBSA had the similar enforcement authority over plan auditors, EBSA, in our
opinion, could have intervened effectively in the instances noted. Instead, plan
audits are not corrected timely and therefore are not adequately protecting
participant interests in plan assets and participants’ benefits are unnecessarily at
risk.

RECOMMENDATION:

1. We recommend the Assistant Secretary for Employee Benefits Security
   propose changes to ERISA to grant EBSA greater enforcement authority over
   such matters as registration, suspension, debarment, and civil penalties
   against employee benefit plan auditors.

EBSA RESPONSE TO THE FINDING:

EBSA stated that it recognized the deficiencies in the current law and was
considering options for correcting those deficiencies.

OIG CONCLUSION:

This recommendation is unresolved. We will consider it resolved when EBSA
determines what action to take to correct deficiencies in the law. We will follow
up with the options EBSA pursues to obtain additional authority to take
enforcement actions against plan auditors performing substandard work.

Objective 2: Does EBSA ensure that plan auditors correct substandard audits?

EBSA did not fully ensure that auditors corrected audit deficiencies in the year
reviewed. Based on the audits we reviewed, we concluded that 9 of the16
substandard audits that EBSA identified had never corrected all the identified
deficiencies.

Objective 3: Does EBSA ensure that the deficiencies identified do not recur in
other years?

EBSA did not ensure auditors corrected recurrent deficiencies in year(s) that
were more recent. We found that 74 percent (20 out of 27) of the plans where
EBSA identified a substandard audit continued to have substandard audit(s) in
one or more subsequent years.

EBSA Needs to Ensure Plan Auditors Correct Audit Deficiencies

EBSA did not fully ensure that auditors corrected audit deficiencies in the year
EBSA reviewed or more recent years. This occurred because EBSA did not
obtain sufficient documentation from plan auditors that:
8                                                   EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


       identified deficiencies in the year EBSA reviewed were sufficiently
       corrected, and

       did not believe they had sufficient resources to expand workpaper reviews
       to later years’ audits.

As a result, participants in plans did not have adequate assurances that the plan
assets existed, were properly valued or that the plan conducted its financial
operations properly. These issues are discussed in the following sections.

 We reviewed        Identified Deficiencies Not Corrected
 16 audits that
 EBSA
                    EBSA did not obtain sufficient documentation to determine
 previously
 identified as      that auditors corrected deficiencies EBSA identified. We
 substandard; 9     reviewed 16 audits that EBSA previously identified as
 of these were      substandard and had notified the plan auditors of the
 never corrected    deficiencies. We concluded that in 9 of these audits, plan
 by plan            auditors never corrected the identified deficiencies. These
 auditors.          audits covered almost $90 million in assets and affected about
                    3,000 participants.

ERISA requires plan auditors to conduct employee benefit plan audits in
accordance with GAAS. To evaluate compliance with GAAS, EBSA uses the
guide it prepared based on the AICPA Audit and Accounting Guide, Audits of
Employee Benefit Plans. According to GAAS, if plan auditors do not follow the
AICPA guidance, they need to be prepared to justify each departure from the
guidance. We used both EBSA’s and the AICPA guide to measure audit quality.

When EBSA finds substandard audit work, it generally does two things. First, it
refers the substandard plan auditor to the AICPA or a State Board for a separate
investigation and corrective actions. Second, it issues a Notice of Rejection
(NOR), informing a plan administrator that the annual report filing has been
rejected due to audit quality deficiencies. The plan administrator then works with
EBSA and the plan auditor to correct the deficiencies. When EBSA is satisfied
the deficiencies are corrected, it generally withdraws the NOR and accepts the
annual report filing. Only if the plan auditor corrects audit deficiencies can the
plan participants and beneficiaries get the full benefit of an audit.

To determine if auditors fully corrected audit deficiencies identified by EBSA, we
first identified the universe of plan auditor referrals (referrals) EBSA made to
either the AICPA or State Accountancy Boards during calendar years 1998
through 2001. During this period, EBSA referred 51 plan auditors for
substandard audit work and rejected the annual filings for which the plan auditors
performed these audits. We then selected a statistically valid sample of 27 of
these referrals and the corresponding audits for testing. We requested access to
the workpapers for these audits for the same year EBSA reviewed. However,

EBSA Needs Additional Authority to Improve                                            9
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


due to the length of time that had passed since EBSA reviewed these audits,
only 16 of the 27 plan auditors still had the workpapers for the year that EBSA
had reviewed. Eleven of the 27 plan auditors told us they had either lost or
destroyed the workpapers EBSA had reviewed. Seven of these 11 auditors have
potentially violated ERISA retention requirements and we have referred them to
EBSA for appropriate action.

We examined the workpapers of the remaining 16 audits using EBSA‘s review
guide, which EBSA based on the AICPA Audit and Accounting Guide – Audits of
Employee Benefit Plans. We specifically reviewed those areas EBSA had
determined were substandard to find out if corrective actions had brought the
audit work into compliance with GAAS.

Based on the 16 audits we reviewed, we concluded that in 9 of these audits,
identified by EBSA as substandard, the plan auditors still had not complied with
GAAS. For example, in one substandard audit, EBSA determined that the
auditor performed almost no audit work at all. EBSA rejected the Form 5500
filing and provided a very detailed Notice of Rejection (NOR) specifically
describing the audit deficiencies. In response to the NOR, the auditor revised the
audit report and submitted copies of audit programs for the substandard audit
areas. EBSA accepted the corrective actions and withdrew the NOR.

However, when we reviewed the same audit, we found the auditor had not
actually performed significant additional audit work. We found that although the
auditor had sent EBSA the audit programs that specify the audit steps the auditor
should accomplish, the auditor had not performed the actual audit work indicated
in these audit programs. The audit continued to be substantially substandard
when measured against GAAS. Moreover, the auditor had not performed most
of the audit procedures essential to protect participants, such as verifying the
existence of investments or checking benefit payment computations. These two
areas are critical in ensuring investments exist to fund benefits and that
participant benefits are being paid properly. These were also the same areas
EBSA identified as substandard several years earlier. Over 300 participants in
this $2 million plan did not receive the audit protections intended by ERISA.
They had no assurance that the plan assets existed, were properly valued or that
the plan conducted its financial operations properly.

In another case, EBSA found the auditor had not performed sufficient work in
several major audit areas, including internal controls, investments, contributions,
and benefit payments. Accordingly, EBSA rejected the Form 5500 filing, and
issued a NOR, which provided specific details of the deficiencies identified. In
response, the auditor submitted a revised audit report on the financial
statements. EBSA accepted the revised report and financial statements,
withdrew the NOR, and accepted the audit as corrected.



10                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


Our review of the auditor’s workpapers determined that while the auditor revised
the audit report, the auditor had not corrected most of the audit deficiencies
EBSA had identified. The audit was still substandard in the areas previously
identified as substandard by EBSA and did not meet GAAS. The auditor did not
address the audit deficiencies, and did not perform such basic tasks as (1)
verifying investment existence and value, (2) verifying participant eligibility, or (3)
determining the accuracy of benefit computations. These areas are critical
because investments fund most benefits and participants need assurances that
plans are valuing investments properly and are computing and paying their
benefits properly and only to eligible recipients. Due to the audit deficiencies,
over 1,000 plan participants in this $60 million plan did not receive these
assurances.

Overall, as stated earlier, 9 of the 16 audits reviewed did not correct identified
deficiencies to the level required by GAAS. EBSA could not ensure plan auditors
corrected audit deficiencies identified by EBSA because EBSA had not allocated
sufficient resources to the following tasks. EBSA did not:

   •   require auditors to demonstrate the corrective actions the auditors took to
       remedy specific deficiencies identified in the audits; and
   •   follow up on the corrective actions to ensure the auditors corrected the
       GAAS deficiencies.

As shown in the examples above, EBSA did not devote sufficient effort to
following up and ensuring plan auditors corrected substandard audits. Instead, in
9 of the 16 cases we reviewed, EBSA accepted work or documents that did not
provide sufficient evidence that the plan auditors had corrected the deficiencies.

In addition, as explained in the following section, EBSA did not expand its
reviews to more recent years after it found an audit deficiency. As a result, these
audit deficiencies were present in audits of subsequent years, affecting the
overall quality of these employee benefit plan audits.

Recurrent Deficiencies Not Corrected

Once EBSA identified a substandard audit, EBSA did not (1) determine if the
same deficiencies existed in audits performed after the year reviewed, or if they
                         did, (2) ensure that the auditor corrected these
 EBSA did not review     deficiencies in the audits conducted after the EBSA
 more recent audits      review. This inaction, coupled with the lack of
 to determine if they    corrective action discussed above, exposed
 were also               participants and beneficiaries to several years of
 substandard.            financial vulnerability without the protections ERISA
                         intended from plan audits.


EBSA Needs Additional Authority to Improve                                           11
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


Several years can pass between the time the plan audit is performed and the
time EBSA reviews the audit. This happens because of the lengthy filing6 and
processing time and the availability of EBSA’s resources. In the meantime,
auditors are likely to have performed several additional years’ audits before
EBSA conducts a review of an audit.

For example, we found that generally, 3 years passed between the ending of a
plan year and an EBSA workpaper review. This means that, in most plans, an
auditor would have performed two intervening audits by the time EBSA
performed its workpaper review.

However, when EBSA found audit deficiencies, even when audits were
substandard in nearly every audit area, it did not expand its review to these more
recent years to determine if the deficiencies continued. More recent audits are
likely to have the same deficiencies year after year. We were able to review
more recent audits for all 27 plan audits in our sample. We reviewed all available
workpapers for the years after the one EBSA reviewed through at least plan year
2001, and in some cases, 2002 when available. This consisted of one to eight
audits per plan, depending on the availability of workpapers. In total, we
reviewed 137 audits, including 16 audits that EBSA reviewed previously and 120
audits that plan auditors conducted after EBSA’s reviews. Due to the lack of
workpaper availability, we also reviewed one audit conducted before the year
EBSA reviewed for informational purposes. Exhibit I to this report details the
plan years we reviewed.

Overall, we found that 20 out of 27, or 74 percent, of the plans where EBSA
identified a substandard audit continued to have substandard audits in one or
more subsequent years. For example, in 1997 EBSA selected a welfare benefit
plan for review based on an audit report and financial statements for its plan year
1993 that did not comply with professional standards. EBSA performed a review
on the workpapers for plan year 1993 and found the audit work to be
substandard. The auditor did not perform some of the most basic audit work
required under GAAS. There was no audit program, no documentation of
internal controls reviewed, and no client representation letter, despite GAAS
requirements for each of these. In addition, EBSA found testing in the following
audit areas to be deficient: benefit payments, party-in-interest and prohibited
transactions, plan tax status, commitments and contingencies, subsequent
events, investments, contributions, and participant data.

By the time EBSA reviewed the audit work in 1997 and identified these
deficiencies, three plan years had elapsed and the same auditor had performed
audits of each of these years. Yet, EBSA did not expand its review to include
these more recent audits of plan years 1994 through 1996.
By the time of our audit in 2003, the same plan had obtained eight audits
(through plan year 2001) since the EBSA review. We reviewed all eight audits
6
 The filing due date may be extended to 9 ½ months after the plan’s year-end.
12                                                       EBSA Needs Additional Authority to
                                        Improve the Quality of Employee Benefit Plan Audits
                                                                   Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


(plan years 1994 through 2001) and found all to be substandard in every audit
area. Our conclusions were nearly identical to the original EBSA conclusions on
the audit work. For all years, there was inadequate work in such critical areas as
investments, benefit payments, contributions, and prohibited transactions. This
welfare plan provided life insurance, disability, and supplemental health
protections for 150 participants. For the 8 years we reviewed, the participants
and beneficiaries were without the protections ERISA intended through a plan
audit.

In another plan, EBSA found serious deficiencies with both the audit and the
financial statements. EBSA issued a NOR informing the plan administrator and
auditor of the deficiencies that needed to be corrected. In response, the plan
administrator restated the financial statements and the auditor revised the audit
report the year EBSA reviewed.

We examined the audit workpapers for the plan year after EBSA’s review. We
found the same audit areas to be substandard. Specifically, we determined there
was little or no planning performed, no internal control assessment
documentation, almost no work in the area of investments, and no audit work in
the areas of contributions, benefit payment, participant data, party-in-interest and
prohibited transactions, plan tax status, commitments and contingencies, and
subsequent events.

This plan did not have an acceptable audit, as required by ERISA for the 3 years
audited by this CPA firm after EBSA’s review. This plan had about $2 million in
assets and covered about 200 participants. During those 3 years, the
participants had no assurances of the financial integrity of their pension plan.

In both examples, auditors had completed at least two additional years’ audits by
the time EBSA performed its review. EBSA was at the auditor’s office and could
have expanded its review to more recent years. More importantly, EBSA could
have required corrective actions on all the audits at the same time.

EBSA management, however, told us it could better use staff resources on other
activities, including education and compliance assistance. EBSA management
also told us expanding the reviews to cover more recent audits would take time
away from reviewing other plans. Rather than reduce the number of plans
reviewed, while increasing the years reviewed, it was their decision to review as
many plans as possible, keeping the number of years at each plan to a minimum.

We disagree that expanding the reviews would take time away from reviewing
other plans. During our audit, we found that the additional time required to
conduct a review of more recent years’ audit workpapers was not as significant
as the initial review. This would be particularly true if the expanded review was
limited to areas where EBSA noted deficiencies in the initial review. We believe


EBSA Needs Additional Authority to Improve                                           13
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


EBSA could protect more plan assets and assure more participant benefits with
minimal additional costs.

This is not a new concept. EBSA’s 1997 study of plan audit quality specifically
recommended this action. The report concluded that when EBSA identifies audit
deficiencies, EBSA should review more recent work products to ensure
continued compliance with professional audit standards. However, EBSA has
not implemented this recommendation because it believed this process would
take an inordinate amount of staff resources.

Summary

Overall, we concluded the majority of the plans in our sample did not receive an
audit that complied with GAAS, as intended by ERISA. We found that plan
auditors did not correct 9 of the 16 audits in which EBSA identified deficiencies.
Furthermore, 20 of the 27 (74 percent) of the plans in our sample had
substandard audits that continued into more recent years. Plans with
substandard audits in our sample cover assets totaling over $159 million and
about 20,000 participants. Many of the plan audits did not verify the existence of
assets, substantiate the values of assets, or review benefit eligibility.

We have referred the plan auditors who continued to perform substandard work
after EBSA’s review, and 13 additional plan auditors we found during our review,
to EBSA for appropriate action.

RECOMMENDATIONS:

We recommend the Assistant Secretary for Employee Benefits Security:

     2. Obtain sufficient documentation to determine that audit deficiencies were
        corrected.

     3. Expand workpaper reviews to more recent years when EBSA finds audit
        deficiencies.

     4. Review the OIG referrals and take necessary action to correct the
        substandard audits.

EBSA RESPONSE TO THE FINDING:

Regarding the nine substandard audits OIG identified as not corrected, EBSA
concluded that six of these cases were properly documented and closed after
receiving additional information from plan auditors.

However, EBSA agreed to implement the recommendations. Specifically, EBSA
agreed to:

14                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General




   •     implement new procedures to ensure improved and more uniform
         documentation of corrected audit work,
   •     instruct staff to review the plan audits of more recent years, where
         applicable, and evaluate the need to examine new auditors’ work, and
   •     review the OIG referrals and take necessary action.

OIG CONCLUSION:
Although EBSA obtained additional information from plan auditors, EBSA did not
examine all workpapers for corrective actions. We examined all of the
workpapers of these substandard audits using EBSA‘s review guide, which
EBSA based on the AICPA Audit and Accounting Guide – Audits of Employee
Benefit Plans. We specifically reviewed workpapers related to those areas EBSA
had identified as substandard to determine whether corrective actions had
brought the audit work into compliance with GAAS. In nine cases, we concluded
the plan auditor did not make corrections and we believe that EBSA would come
to the same conclusion if it reviewed the actual workpapers. Therefore, our
recommendations remain unchanged.

Despite our disagreement on the specific cases, EBSA agreed to implement the
recommendations and these recommendations are resolved. To close the
recommendations EBSA needs to provide documentation of the new procedures
and actions taken on the OIG referrals.

EBSA Needs to Improve Its Case Tracking System and Case File
Documentation
                                       EBSA’s case file information was not
  EBSA did not maintain its case       accurate or complete. Specifically, we found
  file tracking system accurately      (1) certain data fields in the case tracking
  and case files were missing          system were not accurate and (2) some case
  and incomplete.                      files were missing or incomplete. Case
                                       information problems occurred because
EBSA did not believe that certain data fields in the Case Tracking System CTS)
were critical to its day-to-day operations, and did not have a system to monitor
the location of the case files within EBSA’s offices. As a result, EBSA was not
able to monitor case files adequately to be assured that plan auditors corrected
substandard audits.

EBSA established the CTS in order to monitor and track the progress and status
of case files, the corrections made by plan auditors, and other actions taken.
During our review, the CTS was composed of an electronic database and
physical case files representing approximately 2,400 employee benefit plans
reviewed by EBSA annually. EBSA used the electronic database to track a case
file’s status and the actions taken by EBSA. EBSA ran queries using the
database, such as identifying those plans that had an audit workpaper review

EBSA Needs Additional Authority to Improve                                           15
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


and the results of the review. This was intended to allow management to monitor
case status, corrective actions, and final case disposition.

However, the CTS was not complete and accurate. We found that the electronic
database contained errors and some case files lacked documentation or could
not be located.

Database not accurately maintained

EBSA did not update its electronic case database accurately. During our audit
testing for 2001, we attempted to track the status of the 75 cases EBSA had
selected for workpaper reviews through the database. We found that EBSA had
not recorded the workpaper review results of 38 of these 75 cases (51 percent).
However, in fact, EBSA had completed some of these workpaper reviews more
than a year earlier. For example, 13 of 14 (93 percent) of the workpaper reviews
EBSA completed in February 2001 were not reflected in the October 2002 CTS
report.

In addition, we tried to track the status of seven plan auditors referred to the
AICPA or State Boards in calendar year 2001 for substandard audit work. We
found that EBSA had recorded four of these seven erroneously in the CTS
database. For example, for three of these auditors the CTS database indicated
that EBSA found no deficiencies in the audit work, even though EBSA had
referred the auditors for significantly substandard work in each case.

Case Files - Missing and Incomplete

For our audit testing on all audit objectives, we attempted to locate and review
110 case files. As discussed in the following paragraphs, there were several
problems in locating and reviewing these files.

First, EBSA’s case file documentation was incomplete. Of the 110 case files we
reviewed, we specifically tried to determine the corrective actions taken in 35
selected files. During our analysis of the 35 case files, we found 9 case files (26
percent) where EBSA’s case file did not document final corrective or enforcement
action taken. For example, one plan’s case file showed significant violations of
ERISA. However, we could not determine from the case file what actions EBSA
had taken. Only through interviewing EBSA staff did we learn the action taken
was EBSA transferring the case to the Office of Enforcement. EBSA did not
document this action in the case file.

Second, EBSA could not readily access 8 out of 110 (7 percent) case files at the
Washington, DC office. During our fieldwork, EBSA staff was eventually able to
locate five of these eight files. However, it took considerable time and effort by
both administrative and professional staff to track down the location of the files.


16                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


Despite the efforts of the staff, during our fieldwork, EBSA could not find:

       •   the complete case file of a plan on which it had performed a workpaper
           review. The EBSA workpaper review identified serious deficiencies in
           four major audit areas in addition to noncompliance with GAAS and
           ERISA requirements. However, since the file was lost, EBSA could not
           determine if it took corrective actions or the status of the case. We
           believe this case represented significant hours of staff time, which may
           be lost if the results of the review are not acted upon.

       •   the case file for which it had issued a “Notice of Intent to Assess
           Penalty.” This notice informs a plan administrator that EBSA has
           found ERISA violations and intends to impose a penalty. Since the file
           was lost, EBSA could not determine what deficiencies it previously
           identified, what corrective actions it took, or the status of the case.
           Again, we believe this case represented a significant number of staff
           hours.

       •   the case file of a plan where the records indicated EBSA had reviewed
           the plan’s financial statement. EBSA could not determine if the staff
           ever reviewed the plan’s financial statements or what the results were,
           if any. The benefits of this review will be lost if the results cannot be
           determined.

Case tracking system problems occurred because EBSA has no standardized
procedures to maintain such files. EBSA had not developed a handbook,
checklist, or other written procedures to ensure that staff properly documented a
case or that the CTS database is current. Further, although EBSA utilizes a
logbook system for case files removed from their premises, they have not
developed such a system to monitor the location of their nearly 3,000 case files
within their offices.

Maintaining the case tracking system would not take significant additional
resources. We believe the OCA administrative staff expended time looking for
case information and some cases went uncorrected. Therefore, the CTS did not
fully serve as an effective management information system. Improving controls
over the case tracking system would save time and could increase enforcement
effectiveness.

EBSA did not have assurances that it had taken all required corrective actions.
In 3 of the 9 cases previously noted, EBSA overlooked corrective actions. For
example, EBSA reviewed a profit sharing plan and determined the plan did not
obtain the required audit. There was no evidence of any substantial corrective
action or follow-up by EBSA in the case file and, in fact, the plan never obtained



EBSA Needs Additional Authority to Improve                                           17
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


an audit or submitted an auditor’s report. The case remained uncorrected 4
years after EBSA’s initial review.

In another case, EBSA determined that the plan administrator did not obtain the
required audit and tried to notify the plan administrator. The postal service
returned EBSA's correspondence undelivered. There was no evidence in this
case file that EBSA took any further action. However, we easily located the plan
sponsor using the Internet. The plan administrator never obtained an audit and
remained out of compliance with ERISA.

EBSA cannot depend upon its CTS database for accurate or timely information
as to case files’ status or applied corrective measures. To understand the status
or disposition of certain of case files, EBSA must make follow-up inquiries among
its staff. This is not an effective use of staff time and management cannot readily
retrieve the current progress and status of the cases. An inaccurate CTS may
lead to violations that remain uncorrected, thus exposing plan participants to
unnecessary risks. Overall, the problems with the case tracking system hamper
the agency’s ability to manage its human resources efficiently to meet its goals.

RECOMMENDATION:

     5. We recommend the Assistant Secretary for Employee Benefits Security
        improve the accuracy of the CTS database and the completeness of the
        case file documentation and implement a system to monitor the location of
        the case files within EBSA’s offices.

EBSA RESPONSE TO THE FINDING:

EBSA agreed with the recommendation and will develop and implement
improvements to the CTS during fiscal year 2005.

OIG CONCLUSION:
We consider the recommendation resolved. To close the recommendation,
EBSA needs to provide documentation of the improvements it makes.

Objective 4: Are EBSA’s methods for identifying substandard employee benefit
plan audits effective?
 Properly             EBSA is following its policy for targeting plans with financial
 prepared             statements that are not presented in accordance with
 financial            standards and requirements for workpaper review.
 statements are       However, EBSA’s targeting methods are not effective. In
 not indicators       fiscal year 2001, EBSA’s targeting identified substandard
 of high quality      audits in only about 3 percent of the plans reviewed.
 audits.
18                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                        U.S. Department of Labor--Office of Inspector General


Historical data show that EBSA should find at least 20 percent of the plan audits
reviewed to be substandard.

EBSA Needs to Develop More Effective Targeting Methods

EBSA has not analyzed available data as a means to develop effective targeting
methods for identifying substandard plan audits. This occurred because EBSA
did not place sufficient management emphasis on changing targeting methods.
As a result, EBSA’s targeting methods for identifying substandard audits were
not effective. While historical data show approximately 20 percent or greater of
plan audits are substandard, EBSA’s fiscal year 2001 targeting only identified
about 3 percent of the plan audits as substandard. This means EBSA could be
missing a large number of substandard audits and is not effectively directing its
resources towards plans that are most likely to have substandard audits. This
reduces overall protections for plan participants and beneficiaries.

EBSA’s Goal

In its 2002 Annual Performance Plan, EBSA stated that, relative to employee
benefit plan audits, its goal was “ . . . ensuring that audits of employee benefit
plans comply with professional standards.” To meet this goal, EBSA must
enforce the ERISA audit requirements on approximately 65,000 employee benefit
plans each year.

Since EBSA does not have sufficient resources to review all of these plan audits,
EBSA uses various targeting techniques to identify those plan audits that are
substandard.

EBSA’s Targeting Methods

In order to fulfill its responsibility of enforcing ERISA audit requirements, EBSA
performs computer targeting of the 65,000 plans and selects 2,000 to 3,000 plan
financial statements for a “desk review”7 for compliance with GAAP, GAAS, and
ERISA. EBSA has based this targeting on such attributes as type of audit
opinion, type of plan investments, and lack of required financial statements.

If the desk review determined the audit reports and the accompanying financial
statements met professional standards and ERISA requirements, EBSA ended
its review and accepted the filing. If however, the financial statements did not
meet these requirements, EBSA then performed a review of the audit
workpapers, generally at the plan auditors’ office. Based on the workpaper
review, EBSA concluded if there were deficiencies in the audit work. Each year
EBSA performs about 75 such detailed reviews.

7
  A desk review is the review of the plan’s audit report and accompanying financial statements to
determine whether these documents are presented in compliance with GAAP, GAAS, and ERISA
requirements.
EBSA Needs Additional Authority to Improve                                                      19
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




EBSA used this targeting approach because it considered audit reports and their
accompanying financial statements that did not comply with requirements as
strong indicators that the related audits are also substandard. Conversely, EBSA
presumed that financial statements that met standards were a reflection of a
quality audit.

We reviewed 164 of 64,996 audit reports and accompanying financial statements
of employee benefit plans. The purpose of our review was to determine whether
EBSA’s initial computer targeting process was adequate in identifying plans for a
financial statement review. Although EBSA used certain attributes in its selection
process, such as type of audit opinion, we selected our sample using statistical
methods. We did not include in our sample those plans EBSA chose for review
during 2001. Based on our review of these 164 audit reports and accompanying
financial statements, we determined that only 5 percent (9 out of 164) presented
significant deficiencies and should have been reviewed further by EBSA. This
was comparable to EBSA’s results for 2001. For this year, EBSA identified 3
percent (75 out of 2,401) of the audit reports or financial statements it reviewed
that exhibited deficiencies significant enough to warrant further follow-up.

To determine if EBSA appropriately identified substandard financial statements
as a means of determining whether further review is required, we selected a
statistical sample of 75 of the 2,401 financial statements EBSA reviewed during
2001. We found that EBSA appropriately applied its criteria in assessing whether
plans should be subjected to a workpaper review in order to identify substandard
audits. Specifically, we found only one case in which we disagreed with its
conclusions.

However, this targeting method of reviewing financial statements was not
effective in identifying substandard audits. With EBSA’s expertise, experience,
and available data, targeting methods should produce results at least as reliable
as that derived from a statistically random selection method. In fiscal year 2001,
EBSA’s targeting identified only about 3 percent of the audits reviewed as
substandard. Before 2004, EBSA and OIG studies showed that random
selection identified about 20 percent of plan audits to be substandard.

Based on our audit, several factors led us to conclude that appropriately
prepared and presented financial statements were not reliable indicators of a
properly conducted audit. First, during our review of a statistical sample of
substandard audits, we analyzed the relationship between the quality of the
financial statements and that of the audit work for each year reviewed. In total,
we reviewed 137 sets of plan financial statements and audit workpapers for the
27 plans in our sample. (See pages 36 to 39 for a detailed discussion of the
methodology.)



20                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


Our tests disclosed that over 20 percent of plan audits with financial statements
that complied with standards were, in fact, significantly substandard in actual
audit work. For example, we reviewed a plan whose financial statements met all
standards and requirements. However, for all 6 years we reviewed, the audits of
this employee benefit plan were substandard. The auditor did not meet the
standards in the areas of planning the audit, assessing internal controls, testing
of investments and participant data. Therefore, we concluded that compliant
financial statements were not reliable indicators of audit quality.

Also, EBSA’s 1997 study supported this conclusion. In this study, performed on
a random statistical basis, the data showed that 19 percent of the audits were
substandard but less than 5 percent of the audits had substandard reports. In
fact, the majority (39 of 50) of the audits with major deficiencies had reports that
met requirements. Further, 7 of the 12 plans with substandard financial
statements, actually had audits that otherwise met GAAS requirements.
Therefore, using substandard reports to target audits for review would have
missed the majority of the substandard audits while wasting resources in
expanding reviews unnecessarily.

The 1997 study further concluded that EBSA needed to revise its targeting
methods. The study specifically stated:

              EBSA should revise the criteria for targeting cases
              to identify a greater number of plan filings with audits
              performed by small to medium size IQPA firms.
              Currently, targeting is based on factors, which do
              not relate to the size of the IQPA firm.

However, as discussed in the following section, EBSA has not implemented the
recommendation from its 1997 study nor has it determined what changes are
necessary based on current data.

EBSA Did Not Implement Recommendations

EBSA did not implement its own recommendations on changing targeting
methods. According to EBSA management, it postponed the targeting change
because data to implement more effective targeting were not available. In order
to implement the recommendations of the EBSA 1997 study, EBSA needed to
identify the CPA firms performing the plan audits in order to target smaller firms.
However, this information was not available in the Form 5500 information EBSA
received. While some of the information was on the Form 5500, it was not
complete nor did EBSA capture the information in its database.

Therefore, to implement the recommendations would have required a large
investment of staff time. Each plan would have had to be manually researched
as to the size of its CPA firm or other targeting information. It was EBSA’s

EBSA Needs Additional Authority to Improve                                           21
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


management decision that this was too time-consuming and that resources could
be better used on other enforcement activities.

In the interim, EBSA used targeting methods that the historical data did not
support.

Studies with Statistical Random Sampling

As noted earlier, past OIG, EBSA and GAO studies using statistical random
sampling have shown a high deficiency rate in plan audits. Historically,
approximately 20 percent of employee benefit plan audits have been
substandard. For example, an OIG audit in 1989 found that 23 percent of audits
did not meet the audit standards.8 GAO reviewed the OIG work and confirmed
the validity of its work (and the deficiency rate) in 1992.9 EBSA further confirmed
this with its own review in 1997 that showed 19 percent of the audits reviewed
did not meet the audit standards.10 All of these studies used random statistical
sampling, with no targeting involved.

Substandard Audit Indicators

These OIG, GAO, and EBSA studies have shown that some attributes are strong
indicators of substandard audits. For example, the 1997 EBSA study stated that
the size of the CPA firm performing the audit was a strong substandard audit
indicator. Specifically, this study showed that plans audited by smaller firms
were more likely to be substandard than those audited by larger firms. Our
statistical sample of 27 plans with substandard audits showed this same trait.
(See Exhibit II.) The studies conducted by OIG and GAO contain a wealth of
similar information on the substandard audit indicators.

However, EBSA did not use this available data to develop targeting methods.
Instead, EBSA continued to use audit report and financial statement reviews to
identify substandard audit work. This produced a much lower deficiency rate.
Out of the 2,401 plans EBSA reviewed in 2001, EBSA only identified 75 audits
that failed its desk and/or workpaper reviews. This indicates a 3 percent
deficiency rate. However, using the 20 percent historical deficiency rate, we
estimate 480 of these 2,401 plans were probably substandard. We, therefore,
estimate EBSA did not detect over 400 substandard audits in its review of the
2,400 plans. Since EBSA did not detect these substandard audits, the auditors
were never required to make corrections and participants did not obtain the full
protections of audits ERISA required.

8
  U.S. Department of Labor, Office of Inspector General, Changes Are Needed in the ERISA
Audit Process to Increase Protections for Employee Benefit Plan Participants, November 9, 1989.
9
  United States General Accounting Office, Employee Benefits Improved Plan Reporting and CPA
Audits Can Increase Protections Under ERISA, April 9, 1992.
10
   U.S. Department of Labor, Pension and Welfare Benefits Administration, “Assessment of the
Quality of Employee Benefit Plan Audits, ” March 1997.
22                                                        EBSA Needs Additional Authority to
                                          Improve the Quality of Employee Benefit Plan Audits
                                                                  Report No:09-04-005-12-121
                                        U.S. Department of Labor--Office of Inspector General


Participants and Beneficiaries Do Lose in Substandard Audits

Participants and beneficiaries in several plans we sampled did, in fact, lose
benefits because of substandard audits. In at least four plans, substandard
audits did not discover overvalued assets. These overvalued assets were
undetected for several years and, when finally discovered, resulted in
participants and beneficiaries losing 60 percent of their pension value.11

In these instances, the plan auditors performed substandard work and did not
apply required audit procedures, including verifying plan investment existence or
value. In fact, the investments were improperly stated and the principal of the
company handling the assets was eventually convicted of fraud. Audits that
complied with GAAS might have prevented this. Improved targeting by EBSA
could better identify these plan audits before losses become significant.

RECOMMENDATION:

We recommend the Assistant Secretary for Employee Benefits Security:

        6. Analyze available data and develop targeting methods based on
           common attributes of plans with substandard audits.


EBSA RESPONSE TO THE FINDING:

EBSA agreed with the recommendation that alternative techniques are
necessary to improve targeting substandard audits. EBSA stated it will evaluate
the results of a 2004 study and revise the approach for targeting plans. EBSA
stated it would evaluate the results of these changes by early fiscal year 2006.

However, EBSA stated that the OIG’s discussion of the results of past EBSA
targeting efforts failed to take into account filings EBSA rejected in FY 2001
based on desk reviews that identified inadequate financial statement disclosures.

OIG CONCLUSION:
The only means to definitively identify a deficient audit is to perform a review of
the plan auditor’s workpapers. Although EBSA rejected over 500 filings in 2001,
only 75 of these represented a rejection due to a substandard audit, since EBSA
only reviewed 75 plan auditors’ workpapers in 2001. EBSA rejected the
remaining filings based on other criteria, such as a missing audit report.
11
   In April 2002, the former principal of a registered investment adviser pleaded guilty to mail
fraud. The criminal charges against this individual carry a maximum penalty of 8 years in prison
and a fine of $500,000. The complaint states that the company fraudulently sold investments to
pension funds and other investors, using client’s funds to make interest payments to other clients.
Total losses to investors exceeded $355 million. In June 2002, a Federal judge approved a
settlement calling for the recovery of approximately $143 million.
EBSA Needs Additional Authority to Improve                                                       23
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


Therefore, we concluded EBSA identified only 75 (or 3 percent) out of the 2,401
audits selected as substandard.

Based on EBSA’s response, however, we consider this recommendation
resolved. To close the recommendation, EBSA needs to provide documentation
of how it incorporated the results of its 2004 study into new targeting and the
evaluation of its targeting changes.




Elliot P. Lewis
June 20, 2004




24                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General




                                 EXHIBIT




EBSA Needs Additional Authority to Improve                                           25
the Quality of Employee Benefit Plan Audits
Report No:09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




                                                                                 Exhibit I

                             Results of Workpaper Reviews



               Plan Year          Plan Year
               End Date Notice of End Date
               Reviewed Rejection Reviewed
 Sample Number by EBSA    Date     by OIG          Plan Auditor
       1)          2)      3)         4)                5)        6)    7)

       1           5/31/98    11/2/99     N/A       Original      N/A   N/A
                                         5/31/98     New           N     N
                                         5/31/99                   N     N
                                        12/31/99                   N     N
                                        12/31/00                   N     N
                                        12/31/01                   N     N

       2           6/30/95 10/26/98      6/30/95    Original       N     N
                                          N/A        New          N/A   N/A
                                          N/A                     N/A   N/A
                                         6/30/98                   Y     Y
                                         6/30/99                   Y     Y
                                         6/30/00                   Y     Y
                                         6/30/01                   Y     Y

       3           4/30/97     2/2/99     N/A       Original      N/A   N/A
                                         4/30/97    New #1         Y     Y
                                         4/30/98                   Y     Y
                                         4/30/99                   Y     Y
                                         4/30/00     New #2        Y     Y
                                         4/30/01                   Y     Y
                                         4/30/02                   Y     Y

       4         12/31/95 10/19/98 12/31/95         Original      Y     Y
                 12/31/96 10/19/98 12/31/96                       Y     Y
                                   12/31/97                       Y     Y
                                   12/31/98                       Y     Y
                                   12/31/99                       Y     Y
                                   12/31/00                       Y     Y
                                   12/31/01                       Y     Y




26                                                     EBSA Needs Additional Authority to
                                        Improve the Quality of Employee Benefit Plan Audits
                                                                Report No:09-04-005-12-121
                                       U.S. Department of Labor--Office of Inspector General




               Plan Year          Plan Year
               End Date Notice of End Date
               Reviewed Rejection Reviewed
 Sample Number by EBSA    Date     by OIG Plan Auditor
       1)          2)      3)         4)       5)                    6)       7)

       5         12/31/95    2/13/98 12/31/95        Original       N        N
                 12/31/96    2/13/98 12/31/96                       N        Y
                                     12/31/97                       N        Y

       6         12/31/95    7/30/99    N/A          Original      N/A     N/A
                                       12/31/96                     N       N
                                       12/31/97                     N       N
                                       12/31/98                     N       N
                                       12/31/99                     N       Y
                                       12/31/00                     N       Y
                                       12/31/01                     N       Y

       7         12/31/95    9/25/98    N/A          Original      N/A     N/A
                                       12/31/95       New           N       N
                                       12/31/96                     N       Y

       8          1/31/96     3/4/99     N/A         Original      N/A     N/A
                                         1/31/96      New           Y       Y
                                         1/31/97                    Y       Y

       9         12/31/95     4/2/99    N/A          Original      N/A     N/A
                                       12/31/96                     N       Y
                                       12/31/97                     N       Y
                                       12/31/98                     N       Y
                                       12/31/99                     N       Y
                                       12/31/00                     N       Y
                                       12/31/01                     N       Y

      10          6/30/94    1/12/98     N/A         Original      N/A     N/A
                                         6/30/95                    N       N
                                         6/30/96                    N       N
                                         6/30/97                    N       N
                                         6/30/98                    N       N
                                         6/30/99                    N       N
                                         6/30/00       New          N       N
                                         6/30/01                    N       N
                                         6/30/02                    N       N


                    The accompanying notes are an integral part of this exhibit

Legend:

N/A    Audit workpapers were not available for review and examination.
Y      Results of the audit indicate that compliance with standards has been met.
N      Results of the audit indicate that compliance with standards has not been met.

U.S. Department of Labor—Office of Inspector General                                     27
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




               Plan Year          Plan Year
               End Date Notice of End Date
               Reviewed Rejection Reviewed
 Sample Number by EBSA    Date     by OIG Plan Auditor
       1)          2)      3)         4)       5)             6)     7)
       11        12/31/94    1/12/98    N/A       Original   N/A   N/A
                                        N/A                  N/A   N/A
                                       12/31/96               N     N
                                        N/A        New       N/A   N/A
                                       12/31/98               Y     Y
                                       12/31/99               Y     Y
                                       12/31/00               Y     Y
                                       12/31/01               Y     Y

       12        12/31/96    4/26/00 12/31/96     Original    N     N
                                     12/31/97                 N     N
                                     12/31/98                 N     N
                                     12/31/99                 N     N
                                     12/31/00      New        N     N
                                      N/A                    N/A   N/A

       13        12/31/97    6/19/00 12/31/97     Original   N      N
                                     12/31/98                N      N
                                     12/31/99                N      N
                                     12/31/00                N      N
                                     12/31/01                N      N

       14                               6/30/96   Original   N      N
                   6/30/97   7/24/00    6/30/97              N      N
                                        6/30/98              N      N
                                        6/30/99              N      N
                                        6/30/00   New #1     Y      Y
                                        6/30/01              Y      Y
                                        6/30/02   New #2     Y      Y

       15        12/31/95 10/19/98      N/A       Original   N/A   N/A
                                       12/31/96               N     N
                                       12/31/97               N     N
                                       12/31/98               N     N
                                       12/31/99    New        Y     Y
                                       12/31/00               Y     Y
                                       12/31/01               Y     Y


       16          6/30/95   10/2/98    N/A       Original   N/A   N/A
                                        N/A                  N/A   N/A
                                        6/30/97   New #1      N     N
                                        6/30/98               N     N
                                       12/31/98               N     Y
                                       12/31/99               N     Y
                                       12/31/00   New #2      Y     Y
                                       12/31/01               Y     Y

28                                                    EBSA Needs Additional Authority to
                                       Improve the Quality of Employee Benefit Plan Audits
                                                               Report No:09-04-005-12-121
                                       U.S. Department of Labor--Office of Inspector General




               Plan Year          Plan Year
               End Date Notice of End Date
               Reviewed Rejection Reviewed
 Sample Number by EBSA    Date     by OIG Plan Auditor
       1)          2)      3)         4)       5)                    6)       7)
      17         12/31/96    5/17/99    N/A          Original      N/A     N/A
                                        N/A                        N/A     N/A
                                        N/A                        N/A     N/A
                                       12/31/99                     N       N
                                       12/31/00                     N       N
                                       12/31/01                     N       N

      18          4/30/96     2/8/99     N/A         Original      N/A     N/A
                  4/30/97     2/8/99     N/A                       N/A     N/A
                                         4/30/98       New          Y       Y
                                         4/30/99                    Y       Y
                                         4/30/00                    Y       Y
                                         4/30/01                    Y       Y

      19         12/31/97    7/11/00 12/31/97        Original       N        N
                 12/31/98    7/11/00 12/31/98                       N        N
                                     12/31/99                       N        N
                                     12/31/00                       N        N
                                     12/31/01                       N        N

      20          9/30/97    6/23/00     9/30/97     Original       N        Y
                  9/30/98    6/23/00     9/30/98                    N        Y
                                         9/30/99                    N        Y
                                         9/30/00                    N        Y
                                         9/30/01                    N        Y




      21          5/31/95    2/13/98     N/A         Original      N/A     N/A
                                         N/A                       N/A     N/A
                                         N/A                       N/A     N/A
                                         5/31/98       New          Y       Y
                                         5/31/99                    Y       Y
                                         5/31/00                    Y       Y
                                         5/31/01                    Y       Y

      22         11/30/98    2/23/01    N/A          Original      N/A     N/A
                                       11/30/98       New           Y       Y
                    The accompanying notes are an integral part of this exhibit

Legend:

N/A    Audit workpapers were not available for review and examination.
Y      Results of the audit indicate that compliance with standards has been met.
N      Results of the audit indicate that compliance with standards has not been met.

U.S. Department of Labor—Office of Inspector General                                     29
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




               Plan Year          Plan Year
               End Date Notice of End Date
               Reviewed Rejection Reviewed
 Sample Number by EBSA    Date     by OIG Plan Auditor
       1)          2)      3)         4)       5)             6)     7)
                                       11/30/99              Y      Y
                                       11/30/00              Y      Y


        23       12/31/95    5/17/99  N/A         Original   N/A   N/A
                 12/31/96    5/17/99 12/31/96                 N     N
                                     12/31/97                 N     N
                                     12/31/98                 N     N
                                     12/31/99                 N     N
                                     12/31/00                 N     N
                                     12/31/01                 N     N

        24       12/31/95 10/30/98      N/A       Original   N/A    N/A
                                        N/A        New       N/A    N/A
                                        N/A                  N/A    N/A
                                       12/31/97               N      Y
                                       12/31/98               N      Y
                                       12/31/99               N      Y
                                       12/31/00               N      Y
                                       12/31/01               N      Y

        25       12/31/95    1/12/98 12/31/95     Original    N      Y
                                     12/31/96                 N      Y
                                     12/31/97      New        N      Y
                                     12/31/98                 N      Y
                                     12/31/99                 N      Y
                                     12/31/00                 N      Y
                                     12/31/01                 N      Y

        26         6/30/95   10/5/98    N/A       Original   N/A    N/A
                                        6/30/96               N      N
                                        6/30/97               N      N
                                        6/30/98               N      N
                                        6/30/99               N      N
                                        6/30/00               N      N
                                        6/30/01               N      N
                                        6/30/02               N      N

        27       12/31/98     9/4/01 12/31/98     Original    N      N
                                     12/31/99      New        N      N
                                     12/31/00                 N      N
                                     12/31/01                 N      N


Total
                                        137



30                                                    EBSA Needs Additional Authority to
                                       Improve the Quality of Employee Benefit Plan Audits
                                                               Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


                               Notes to Exhibit I
1) Sample Number – A statistical sample of 27 plans from a universe of 51 plans
whose audit EBSA had referred to a State Board or the AICPA during 1998 –
2001.

2) Plan Year End Date Reviewed by EBSA – EBSA performed an onsite review
of the auditor’s workpapers for the year(s) indicated. In general, we determined
that EBSA reviews only one plan year during these onsite examinations. For the
27 plans selected for our sample, EBSA reviewed more than one year in only 7
instances, although the audit workpapers for 20 of these plans were completed
and available for review.

3) Date of Notice of Rejection (NOR) – At the completion of the review of the
plan auditor’s workpapers, EBSA issued a NOR, identifying the deficiencies in
the audit work.

4) Plan Year End Date Reviewed by OIG – For the statistical sample of 27
plans, we reviewed the auditor’s workpapers for the years reviewed by EBSA (if
these audit workpapers were available), and all available workpapers of more
recent audits. In total, we reviewed 137 plan year audits for the 27 plans
selected for testing.

5) Plan Auditor – We have presented the years audited by the original auditor
and reviewed by EBSA. In some cases, the plan administrator obtained the
services of a different auditor after EBSA’s review. This is indicated on the
exhibit as New auditor. If more than one different auditor was obtained in the
years after EBSA’s review, this is indicated as New #1 and New #2.

6) Audit in Compliance with Standards – ERISA requires the plan
administrator to obtain an audit that complies with GAAS. This reflects the
results of our audit.

7) Financial Statement in Compliance with Standards – ERISA requires the
plan administrator to present the plan’s audit report and financial statements in
accordance with GAAS and GAAP. This reflects the results of our audit.




U.S. Department of Labor—Office of Inspector General                                 31
Report No: 09-04-005-12-121
                                             U.S. Department of Labor--Office of Inspector General




                                                                                                    Exhibit II
   Employee Benefit Plans Audited by Plan Auditors from OIG Sample 1)
    Number of               Number of
  Plans Audited            Participants              Total Assets              Size of               Number of
   by Auditor 2)             (Range)                  (Rounded)             Auditor's Firm        Professional Staff

         19               20,000 - 25,000                  $784,300,000       2 - 10 offices             21 - 50

          2                 500 - 1,000                       44,200,000      Single office               1 - 10

         22                5,000 - 10,000                   113,000,000       Single office                >50

          6                 500 - 1,000                       11,000,000      Single office               1 - 10

          3                 500 - 1,000                       12,700,000      Single office               1 - 10

         15               10,000 - 15,000                   226,000,000       Single office               1 - 10

          4                5,000 - 10,000                   126,000,000       Single office               1 - 10

          4                 500 - 1,000                       24,000,000      2 - 10 offices              1 - 10

          4                 500 - 1,000                       12,500,000      Single office               1 - 10

          1                Less than 500                       8,600,000      Single office               1 - 10

          2                 500 - 1,000                       39,100,000      Single office               1 - 10

         27               35,000 - 40,000                   804,000,000       Single office               1 - 10

          4                 500 - 1,000                       15,600,000      2 - 10 offices             11 - 20

          8                5,000 - 10,000                   165,000,000       Single office               1 - 10

          3               10,000 - 15,000                   298,000,000       Single office               1 - 10

          4               25,000 - 30,000                      9,900,000      Single office               1 - 10

         12                5,000 - 10,000                     85,600,000      Single office              11 - 20

         140                  140,000                   $2,779,500,000

 1) We attempted to identify all employee benefit plans that were audited by plan auditors who EBSA referred to the
    AICPA or State Boards, or OIG identified during audit test work as performing substandard audit work. In general,
    this search was conducted using the employer identification number of the auditor. For various reasons, including an
    auditor moving from a sole practitioner work status to employment by a CPA firm (and using the employer
    identification number of the lead firm partner), we were able to identify employee benefit plans for only 17 of these
    auditors conducting employee benefit plan audits in 2001.
 2) These 17 plan auditors were responsible for audits of employee benefit plans included in our sample, as well as other
    employee benefit plans not reviewed by EBSA or OIG for a total of 140 employee benefit plans.




U.S. Department of Labor—Office of Inspector General                                                          33
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




                            APPENDICES




34                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


                                                                          Appendix A

BACKGROUND
Past reviews of employee benefit plan audit quality have consistently disclosed
serious deficiencies in ERISA audits. A 1989 OIG audit disclosed almost a
quarter of employee benefit plans did not comply with one or more professional
standard.12 In addition, the OIG found that two-thirds of the plan audit reports
and accompanying financial statements did not meet the ERISA reporting and
disclosure requirements. Other studies of employee benefit plan audits from
1992 and 1997 performed by the GAO and EBSA confirmed that there was a
consistently high noncompliance rate with audit standards.13

In response to these reviews, EBSA established and increased its oversight of
audit activities by creating the Office of Chief Accountant (OCA). OCA, an office
of 40 staff persons, implemented outreach activities and developed a help desk
for practitioners and plan administrators. OCA also reviews selected plan Form
5500s, financial statements, and workpaper reviews to ensure accuracy and
compliance with ERISA. OCA works with professional and regulatory
organizations and refers plan auditors to the AICPA and State Boards for
substandard audit work.




12
     Ibid 8.
13
     Ibid 9 and Ibid 10.

U.S. Department of Labor—Office of Inspector General                                 35
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


                                                                          Appendix B



SCOPE, METHODOLOGY AND CRITERIA
SCOPE

Our audit covered EBSA’s process for identifying substandard employee benefit
plan audits and ensuring plan auditors corrected the deficiencies. Our audit
focused on EBSA’s actions during the period October 1, 2000 through
September 30, 2001. During that timeframe, EBSA received 64,996 filings that
required an audit. From this population, EBSA performed 2,401 desk reviews.
EBSA subsequently performed workpaper reviews on 75 of the 2,401 plans
included in their desk reviews. To determine whether plan auditors corrected
substandard audits, we expanded the timeframe because of the small number of
EBSA referrals. Thus, we sampled the population of 51 EBSA referrals made
between January 1, 1998, and December 31, 2001. For the referrals sampled,
we included corrective actions taken by either the AICPA or State Boards
through June 30, 2004.

A performance audit includes obtaining an understanding of internal controls
considered significant to the audit objectives and testing compliance with
significant laws, regulations, and other compliance requirements. In order to plan
our performance audit, we considered whether internal controls considered
significant to the audit were properly designed and placed in operation.
Our work on established management controls included reviewing policies and
procedures, interviewing key personnel, and reviewing selected actions to
observe controls in place. We obtained an understanding of management
controls over program operations that EBSA management had implemented to
reasonably ensure that the program met its objectives. We also obtained an
understanding of management controls that EBSA implemented to reasonably
ensure that plan audits complied with ERISA.

Our testing of internal controls was focused only on the controls related to our
audit objectives of assessing that EBSA’s process for identifying and correcting
substandard audits was effective and was not intended to form an opinion on the
adequacy of internal controls overall, and we do not render such an opinion.
Weaknesses noted in our testing are discussed in results of this report.

We conducted the audit in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Our
audit included reviews of policies, procedures, plan documents, and other
auditing procedures we considered necessary in the circumstances.



36                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


We conducted our audit fieldwork from October 2002 through June 2004. We
conducted fieldwork at EBSA’s Headquarters in Washington, DC, and at CPA
firm offices throughout the United States. We gave each selected CPA the
option of providing copies of workpapers to the OIG office in San Francisco or
having OIG staff review the workpapers at the CPA firm office. As a result, we
received copies of workpapers to review in our office from 13 CPA firms, and 14
CPA firms elected to have their audit workpapers reviewed in their offices. The
firms visited were located in the following states: California, New York, North
Carolina, Delaware, Texas, New Jersey, Massachusetts, Minnesota, Georgia,
and Pennsylvania.


METHODOLOGY


In performing our audit, we conducted interviews, researched applicable laws,
reviewed EBSA’s policies and procedures, and studied similar entities. In our
analysis of EBSA’s oversight and monitoring process, we used both statistical
and judgmental sampling.
To determine whether EBSA had sufficient enforcement authority to ensure that
employee benefit plan audits adequately protect participants, we compared
EBSA’s legislative authority as provided by ERISA to other Federal and private
organizations with similar oversight responsibilities. We also conducted
interviews with personnel from and researched information on the SEC, IRS, the
Joint Board of Actuaries, and the PCAOB. Through these interviews and
research, we identified each entity’s level of legislative and regulatory authority.
This authority included enforcement, registration and enrollment systems,
complaint referral processes, audit monitoring practices, and corrective follow-up
procedures.

To evaluate whether EBSA ensured that plan auditors corrected substandard
audits, we performed several tests:


   •   First, we determined if plan auditors corrected the audit deficiencies
       identified by EBSA. We selected a statistical sample of 27 out of 51 plans
       whose auditor EBSA referred to a State Board or the AICPA during
       calendar years 1998 through 2001. We stratified the universe of 51 plans
       into 2 strata – 1998 and 1999 through 2001. We combined the latter
       years due to the small number of referrals.
       For each plan, we tried to examine the audit workpapers for the year of
       referral. However, auditors for 11 of the 27 plans had either destroyed or
       lost the workpapers for the plan year EBSA had examined. Therefore, we
       could only examine 16 plans’ sets of workpapers for the same year that
       EBSA reviewed and referred to the AICPA or State Board.


U.S. Department of Labor—Office of Inspector General                                 37
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


     •   Next, we determined whether EBSA made the appropriate referral of plan
         auditors to either a State Board or the AICPA. We statistically selected 35
         out of 75 workpaper examinations EBSA performed in 2001. We
         evaluated the results of these workpaper examinations to determine
         whether EBSA applied their referral criteria appropriately.

To determine if audit deficiencies identified by EBSA were corrected for
subsequent years, we used the same statistical sample of 27 plans, as noted
above. We obtained and reviewed all available audit reports with the
accompanying financial statements and audit workpapers for the years after
EBSA reviewed the plan through plan year 2001, and evaluated whether these
documents complied with GAAP, GAAS, and ERISA.
Due to the timing of each plan’s audit, some plan auditors had not completed
their audit through plan year 2001. This resulted in a varying number of audits
reviewed for each plan, ranging from two to eight audits for each plan, for a total
sample of 137 plan year audits for the 27 plans.


To evaluate whether EBSA effectively identified substandard audits, we:
     •   determined whether EBSA’s initial computer targeting process effectively
         identified plans with substandard audits. In order to do this, we
         statistically selected audit reports for 164 plans of the 64,996 plan filings
         EBSA received during fiscal year 2001 that required an audit report. We
         reviewed the audit reports and accompanying financial statements for
         compliance with GAAS and ERISA and, compared this rate to EBSA’s
         deficiency rate based their targeted methods.
     •   determined if EBSA appropriately identified substandard audit reports or
         financial statements as a means of determining whether further review is
         required. We selected a statistical sample of 75 of the 2,401 audit reports
         EBSA reviewed during 2001. We reviewed the audit reports and
         accompanying financial statements for compliance with GAAS and ERISA.


We did not design specific tests for the CTS. However, issues with the CTS
arose during the sampling and testing described above.




38                                                   EBSA Needs Additional Authority to
                                      Improve the Quality of Employee Benefit Plan Audits
                                                              Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


CRITERIA

The Employee Retirement Income Security Act of 1974 (ERISA) governs
employee benefit plans. ERISA was designed to establish protections for plan
participants and beneficiaries and includes fiduciary standards, funding levels,
penalties for plan sponsors for noncompliance, and Federal insurance for certain
pension plans.
EBSA administers Title I of ERISA. Title I requires plan administrators to engage
an independent qualified plan auditor to annually audit the plan and file the audit
report with DOL. Title I also stipulates that the examination comply with GAAS
and include the testing of plan books and records considered necessary by the
plan auditor. The auditor must opine on whether the financial statements and
schedules are presented fairly in conformity with GAAP.

Under Title I, EBSA has the responsibility to oversee and monitor compliance
with these audit requirements. EBSA’s oversight and monitoring process
includes:

   •   reviewing employee benefit plan audit reports and workpapers,
   •   ensuring plan auditors correct substandard ERISA audits, and
   •   referring auditors who perform substandard audit work to the AICPA and
       State Boards of Accountancy.




U.S. Department of Labor—Office of Inspector General                                 39
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General


                                                                          Appendix C



ACRONYMS AND ABBREVIATIONS

       AICPA              American Institute of Certified Public Accountants
       CTS                Case Tracking System
       CPA                Certified Public Accountant
       DOL                Department of Labor
       EBSA               Employee Benefits Security Administration
       ERISA              Employee Retirement Income Security Act
       GAAP               Generally Accepted Accounting Principles
       GAAS               Generally Accepted Auditing Standards
       GAO                United States Government Accountability Office
       IRS                Internal Revenue Service
       IQPA               Independent Qualified Public Accountant
       NOR                Notice of Rejection
       OCA                Office of the Chief Accountant
       OIG                Office of Inspector General
       PCAOB              Public Company Accounting Oversight Board
       SAS                Statements on Auditing Standards
       SEC                Securities and Exchange Commission




40                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General


                                                                          Appendix D

RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                 41
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




42                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General




U.S. Department of Labor—Office of Inspector General                                 43
Report No: 09-04-005-12-121
U.S. Department of Labor--Office of Inspector General




44                                                  EBSA Needs Additional Authority to
                                     Improve the Quality of Employee Benefit Plan Audits
                                                             Report No:09-04-005-12-121
                                   U.S. Department of Labor--Office of Inspector General




U.S. Department of Labor—Office of Inspector General                                 45
Report No: 09-04-005-12-121
